<html>
<title> - [H.A.S.C. No. 113-75] PEOPLE'S REPUBLIC OF CHINA'S COUNTERSPACE PROGRAM AND THE IMPLICATIONS FOR U.S. NATIONAL SECURITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-75]
                      PEOPLE'S REPUBLIC OF CHINA'S 
                        COUNTERSPACE PROGRAM AND 
                          THE IMPLICATIONS FOR 
                         U.S. NATIONAL SECURITY

                               __________

                             JOINT HEARING

                               before the

                    SUBCOMMITTEE ON STRATEGIC FORCES

                          meeting jointly with

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 28, 2014

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
86-965                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4621362906253335322e232a366825292b68">[email&#160;protected]</a>  
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado               LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               JAMES R. LANGEVIN, Rhode Island
MO BROOKS, Alabama                   RICK LARSEN, Washington
JOE WILSON, South Carolina           JOHN GARAMENDI, California
MICHAEL R. TURNER, Ohio              HENRY C. ``HANK'' JOHNSON, Jr., 
JOHN FLEMING, Louisiana                  Georgia
RICHARD B. NUGENT, Florida           ANDRE CARSON, Indiana
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
                 Steve Kitay, Professional Staff Member
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk

                                 ------                                

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            MIKE McINTYRE, North Carolina
DUNCAN HUNTER, California            JOE COURTNEY, Connecticut
E. SCOTT RIGELL, Virginia            JAMES R. LANGEVIN, Rhode Island
STEVEN M. PALAZZO, Mississippi       RICK LARSEN, Washington
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
MIKE COFFMAN, Colorado                   Georgia
JON RUNYAN, New Jersey               COLLEEN W. HANABUSA, Hawaii
KRISTI L. NOEM, South Dakota         DEREK KILMER, Washington
PAUL COOK, California                SCOTT H. PETERS, California
BRADLEY BYRNE, Alabama
               David Sienicki, Professional Staff Member
                  Doug Bush, Professional Staff Member
                         Nicholas Rodman, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, January 28, 2014, People's Republic of China's 
  Counterspace Program and the Implications for U.S. National 
  Security.......................................................     1

Appendix:

Tuesday, January 28, 2014........................................    19
                              ----------                              

                       TUESDAY, JANUARY 28, 2014
PEOPLE'S REPUBLIC OF CHINA'S COUNTERSPACE PROGRAM AND THE IMPLICATIONS 
                       FOR U.S. NATIONAL SECURITY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Butterworth, Dr. Robert L., President, Aries Analytics, Inc......     3
Krepon, Michael, Cofounder and Senior Associate, The Stimson 
  Center.........................................................     5
Tellis, Dr. Ashley J., Senior Associate, Carnegie Endowment for 
  International Peace............................................     2

                                APPENDIX

Prepared Statements:

    Butterworth, Dr. Robert L....................................    41
    Forbes, Hon. J. Randy........................................    23
    Krepon, Michael..............................................    48
    McIntyre, Hon. Mike, a Representative from North Carolina, 
      Ranking Member, Subcommittee on Seapower and Projection 
      Forces.....................................................    26
    Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
      Subcommittee on Strategic Forces...........................    25
    Tellis, Dr. Ashley J.........................................    28

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Carson...................................................    64
    Mr. Forbes...................................................    59
    Mr. Rogers...................................................    61
PEOPLE'S REPUBLIC OF CHINA'S COUNTERSPACE PROGRAM AND THE IMPLICATIONS 
                       FOR U.S. NATIONAL SECURITY

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Strategic Forces, 
            Meeting Jointly with the Subcommittee on 
            Seapower and Projection Forces, Washington, DC, 
            Tuesday, January 28, 2014.

    The subcommittees met, pursuant to call, at 3:29 p.m., in 
room 2118, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the Subcommittee on Seapower and Projection 
Forces) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. We want to welcome our witnesses and everyone 
to this joint hearing on the People's Republic of China's 
counterspace program and the implications for U.S. national 
security.
    Unfortunately, we have some votes that are coming up, so we 
have got a little bit of a time squeeze. Chairman Rogers and 
Ranking Member McIntyre both agreed that we will all waive our 
opening statements. Anyone who has an opening statement, feel 
free to submit it for the record. It will be entered into the 
record.
    [The prepared statements of Mr. Forbes, Mr. Rogers, and Mr. 
McIntyre can be found in the Appendix beginning on page 23.]
    Mr. Forbes. The other thing is we are going to, unless 
there is an objection, reduce the time for our questions to 3 
minutes each, because we want every Member to be able to get 
their questions in. Because, unfortunately, tonight, with the 
State of Union and all, we don't have a lot of back time after 
we get these votes called.
    We are delighted today to have with us three very 
distinguished witnesses who are experts in this area. We 
appreciate so much your willingness to be here with us.
    The first witness we have is Dr. Ashley J. Tellis, and Dr. 
Tellis is a senior associate at the Carnegie Endowment for 
International Peace.
    Dr. Tellis, thank you so much for being with us.
    We also have Dr. Robert L. Butterworth, who is the 
president of Aries Analytics, Inc. Do not shake his hand; he 
says he has a cold. And we are going to say ``cold,'' but we 
have something, you know, that is there. But he has been very 
thoughtful in not giving that to us.
    And Dr. Michael Krepon, the cofounder of the Stimson 
Center.
    And to each of you three gentlemen, we thank you for being 
here. On behalf of Chairman Rogers, myself, Mr. McIntyre, Mr. 
Cooper, we thank you for giving us your time and expertise.
    And now we would like to ask you if you could take 3 to 5 
minutes to give us whatever statements you have. Your written 
statements, of course, will be part of the record, and we have 
read those already.
    And, Dr. Tellis, are we going to start with you, or have 
you predetermined that?
    Dr. Tellis. Yes.
    Mr. Forbes. Then, Dr. Tellis, we would love to have you 
start off for us.

 STATEMENT OF DR. ASHLEY J. TELLIS, SENIOR ASSOCIATE, CARNEGIE 
               ENDOWMENT FOR INTERNATIONAL PEACE

    Dr. Tellis. Thank you, Mr. Chairman.
    Chairman Rogers, Chairman Forbes, the distinguished ranking 
members, members of the subcommittee, thank you for the 
invitation to present today on China's counterspace programs.
    In the interest of time, I am going to keep my comments 
extremely brief. I want to make five basic points for your 
consideration.
    The first point is that the current and the evolving 
counterspace threat posed by China to U.S. military operations 
in the Asia-Pacific theater and outside is extremely serious. 
And the threat ranks on par with the dangers posed by Chinese 
offensive cyber operations to the United States more generally. 
That is the first point.
    The second point is that the diversity and the complexity 
of China's counterspace programs make them particularly 
problematic, because they span the gamut all the way from 
direct-ascent and co-orbital ASAT [anti-satellite] programs, 
which receive enormous attention, to equally challenging 
threats like electronic warfare intended to paralyze U.S. 
satellite communications, which actually get very little 
attention, to more recondite dangers, such as directed-energy 
weapons and radiofrequency weapons and computer network attack 
capabilities, which are rather hard to understand. So it is the 
complexity and the diversity of these threats that magnify the 
challenges faced by the United States.
    The third point I want to make is that these dangers are 
acute because the U.S. space systems which are the targets of 
China's activities are simultaneously extraordinarily 
vulnerable and extraordinarily valuable at the same time.
    The fourth point is that the incentives that drive China to 
pursue its counterspace programs are strong and will only 
intensify over time for the simple reason that China views 
itself as being in a geopolitical competition with the United 
States and believes that it must prepare itself for a possible 
conflict with a superior U.S. military. Given this perception, 
Chinese military planners are deeply focused on neutralizing 
American space capabilities because of their belief that such 
neutralization is essential to whittle down the information 
dominance on which the United States military depends on for 
its success.
    The fifth and last point is a more controversial one, but I 
think I should make it. Given China's incentives and the 
reasons why it is pursuing a counterspace program, I do not 
believe Beijing can be dissuaded from moving in a different 
direction through arms-control agreements.
    The only way to persuade China that its counterspace 
programs will not deliver the returns that it seeks, if there 
is any way at all, is for the United States to ensure that its 
military forces can operate successfully despite China's 
investments in counterspace. This will require, at the very 
least, diverse new kinds of investments, which are essential 
for the United States to protect its success in power 
projection operations that will be necessary in the years to 
come.
    Let me end on that note, and thank you for your attention.
    [The prepared statement of Dr. Tellis can be found in the 
Appendix on page 28.]
    Mr. Forbes. Thank you so much, Dr. Tellis.
    Dr. Butterworth.

   STATEMENT OF DR. ROBERT L. BUTTERWORTH, PRESIDENT, ARIES 
                        ANALYTICS, INC.

    Dr. Butterworth. Chairman Forbes, Chairman Rogers, Ranking 
Member McIntyre, Ranking Member Cooper, distinguished members 
of the committees, thank you very much for convening this 
hearing.
    The topic is terribly important, the facts of the matter at 
hand are debated, and the consequences of the approaches open 
to us are neither clear nor guaranteed. We need a lot more 
attention to this problem to help shape our judgments about the 
way ahead.
    China is a large, growing, militarily and economically 
strong assertive power. It has gone to war to expand its 
control over contiguous regions at least four times since the 
Korean war. It might well have done so again in its recent 
disputes with Vietnam, Korea, Japan, the Philippines, and 
Taiwan except that its demands now involve a region of national 
security interest to the United States and U.S. allies. China 
is not yet ready for a military confrontation with the United 
States.
    If things go well, that confrontation may never occur, but 
China does seem determined to prepare for one as it seeks to 
exert unilateral authority over an ever-expanding neighborhood.
    A bellwether here is China's experimentation with 
counterspace operations. If China can deprive the United States 
of reliable and timely space support, our force movements will 
be slower and less coordinated, our longer-range weapons less 
responsive and less accurate, our tactical operations in 
general less focused and more costly, and our global awareness 
more myopic and less timely.
    China's most notorious counterspace experiment involved a 
direct-ascent hit-to-kill technology--that was in January of 
2007--but it is surely looking at other approaches, too, as Dr. 
Tellis just mentioned, including other kinetic-energy weapons, 
lasers, jammers, cyber tools to attack data and command and 
control systems. For the near term, at least, I think it will 
probably favor systems to achieve mission kill by attacking 
U.S. satellites directly, either from orbit or from the ground.
    China will also want to know what U.S. satellites to kill 
in order to achieve the desired degradation in U.S. military 
capabilities. I expect that targeting is a problem, and 
possibly the problem, that will be addressed using the sort of 
capabilities for precision orbital and proximity operations 
that China demonstrated starting a few months ago.
    Such operations could help China characterize the U.S. 
space architecture and perhaps place sensors close to U.S. 
satellites that could provide clues about the how, what, and 
when of the satellites being used for military operations. If 
true, then we should expect to see more extensive examination 
and operational probes in the future.
    So China still has some distance to go before it can be 
confident in a confrontation, but so does the United States. 
There are things we can do to protect some satellites against 
some threats: We can try to complicate China's targeting 
problems by exploiting deficiencies in its ability to detect 
and track potential targets. We can further harden satellite 
subsystems to resist thermal and electronic attacks. And we 
might find ways to engage and defeat an attacker's weapons 
before they engage our satellites.
    But China's counterspace activities presents a broader 
challenge. To meet it, we need to know how to integrate space 
control into plans and preparations for the joint fight more 
broadly. Changes in our space order of battle, whether they 
come about through defensive movements on our part or attacks 
by an enemy or random mishap, can immediately alter the 
effectiveness of our terrestrial forces.
    We need to make sure that command and control is unified 
and timely. We need experiments, demonstrations, and exercises 
that more realistically test our forces' abilities to detect, 
attribute, and respond to attacks on our space systems. We need 
to develop, execute, and repeatedly test plans for operations, 
particularly for power projection, when space is contested.
    We need to better coordinate the planning and developing of 
space defenses. We need to assess the cost-effectiveness of 
selected alternatives to space support. And I hope that we can 
further integrate space into the joint fight by coupling space 
programs more closely with other force-development activities.
    The perspective offered here, what I am talking about, is 
that the United States and China are in a long-term military 
competition which includes significant effort in space. This 
competition is not a policy of momentary advantage or a 
transient appeal, and it creates a core issue of national 
security between China and the United States. It is about and 
will require real capabilities. Finding ways to negate the U.S. 
military space advantage is a compelling strategic requirement 
for China. It won't be moderated by proselytizing space norms 
or deterrence by demarche or a code of conduct for good guys in 
space.
    None of this is meant to suggest that war with China is 
inevitable. It does suggest that a good way to help China join 
and strengthen the international order is to be prepared to 
maintain American principles militarily, including in space.
    Thanks for your attention.
    [The prepared statement of Dr. Butterworth can be found in 
the Appendix on page 41.]
    Mr. Forbes. Thank you, Dr. Butterworth.
    Mr. Krepon.

 STATEMENT OF MICHAEL KREPON, COFOUNDER AND SENIOR ASSOCIATE, 
                       THE STIMSON CENTER

    Mr. Krepon. Thank you, Chairman.
    Mr. Forbes. Mr. Krepon, you might need to pull that 
microphone as close as you can. It doesn't pick up very well.
    Mr. Krepon. Chairman Rogers, Chairman Forbes, Ranking 
Minority Members McIntyre, Cooper, members of this committee, I 
have a huge sense of deja vu sitting here, because I was a 
staffer for a member of this committee when the leadership was 
Mr. Hebert, Mr. Rivers, and Mr. Price, who are looking down on 
us now.
    And back then, the issue was the Soviet space challenge, 
and it was very severe. And a lot of the capabilities that 
China is testing, evaluating, improving aren't new. Those 
capabilities existed back then, as well. And we had, as you 
well know, an intense nuclear competition with Moscow, an 
intense space race with Moscow. We had crises. We competed for 
ideological and geopolitical advantage. It was a fierce 
competition.
    And yet the worst fears of warfare in space were not 
realized; warfare, terrestrial and on the seas, were not 
realized. How did we succeed back then in deterring a 
determined and highly capable adversary, and are there any 
takeaways for us now?
    I think there are several reasons why we avoided warfare in 
space back then. One was that we couldn't firewall it away from 
warfare in other domains. The prospect of uncontrolled 
escalation was in front of us and in front of Moscow. Number 
two, the capabilities in space were so vulnerable that if 
somebody wanted to start shooting up there, we could both be 
extremely harmed. And, also, military capabilities that we had 
invested in and the Soviets invested in for other purposes 
could be repurposed for use in space warfare.
    Now, all of these conditions are true today also, but we 
can't depend on them to prevent China from doing things that 
are extremely harmful to us. So we can't rely on these existing 
conditions to defend ourselves. We need a strategy to deal with 
very real threats to assets that are very meaningful to our 
Armed Forces and to our economic security.
    So what do we do? One thing we can do is to increase the 
resilience of our space assets. We can do this to help deter or 
foil some kinds of attacks, even though our satellites will 
remain vulnerable to a determined attacker willing to suffer 
the consequences.
    What else can we do? We can deter or dissuade through 
disaggregation, to the extent that we have the resources to do 
so. Deterrence of attack is increased by complicating the plans 
of the attacker.
    What else can we do? Space situational awareness. The 
extent to which we can deter depends on how much we know ahead 
of time. And if the committee underfunds space situational 
awareness, then our deterrence capabilities can be diminished 
even if we are doing the other things right.
    What else can we do? We can retain the capability to 
respond in ways of our choosing if somebody messes with our 
space assets or the infrastructure for our space assets. We 
have these capabilities today. They are actually greater today 
than they were during the cold war.
    Now, do we need specific types of weapons that are 
dedicated to the mission of destroying, damaging, disrupting 
satellites? Do we need dedicated, online, ready-to-respond-
quickly types of capability, like we do in the nuclear arena? 
In my view, there is so much latent capability to do this now, 
we don't need dedicated--certain types of dedicated capability.
    I don't think we need the capability that messes space up 
for us as well as for the other guy. So capability that creates 
mutating debris fields, which are indiscriminate and long-
lasting in their effects, it doesn't matter if it is your 
satellite, my satellite, somebody else's satellite, I don't 
think we need that. But we have the capability if we need to.
    Diplomacy. You know, I think one of the lessons a lot of 
people learned during the cold war was that deterrence is 
stronger when it is backed up by diplomacy. Now, we can't do 
treaties in space, but we can do, I think, a code of conduct 
that makes rules and establishes rules of responsible, as 
opposed to irresponsible, behavior. Without rules, there are no 
rule-breakers. I think norms can serve our interests.
    So I am suggesting to you, Mr. Chairman, or Mr. Chairmen, a 
multilayered approach to deal with a very serious problem.
    Thank you.
    [The prepared statement of Mr. Krepon can be found in the 
Appendix on page 48.]
    Mr. Forbes. Thank you, Mr. Krepon.
    Just to let you know and the people in this room, one of 
the interesting things about the Armed Services Committee, we 
are probably the most bipartisan subcommittee in Congress. The 
two ranking members and both Mr. Rogers and I have enormous 
respect for each other. And our Members here are all looking to 
find a solution, as opposed to just driving things politically.
    I appreciate you coming here today and outlining what you 
think we should do. And in my 3 minutes, I just want to 
basically suggest--I think there are three questions we have to 
ask: One, what exactly is the vulnerabilities that we have? 
Number two, what is the magnitude of that problem? And, number 
three, what can we do to fix it? Because part of what we do 
with these hearings is try to take a message to our other 
Members to let them understand exactly what we are looking at.
    Dr. Tellis, you gave us an excellent five-point 
presentation. Your first one is very concerning to me because 
you indicated that you view the problem as extremely serious 
and on par with the cyber problems. And most of us have some 
feel for how serious the cyber threat is from China today.
    The question I would ask to all three of you is, assume 
this happens. Give us your picture of the vulnerabilities that 
we have and then what exactly it would do to us from a 
capability point of view. And, if you can, give us what 
specificity you can give us, as opposed to just globally, you 
know, hitting in there.
    Dr. Tellis, do you mind starting off with that? And then I 
would love to have each one of you weigh in.
    Dr. Tellis. I think there are two capabilities that the 
Chinese have invested in which pose specific kinds of threats.
    The kinetic kill capabilities obviously have a specific 
effect on low-Earth-orbit satellites. And, obviously, the key 
satellites there that matter are electro-optical surveillance 
satellites, which are most at risk because you can interfere 
with their operations not simply through kinetic kill but 
through laser dazzling and so on and so forth. So even if you 
don't get hard kills that contribute to the debris that Mr. 
Krepon has correctly identified is a serious challenge, you can 
interfere with their operation through directed-energy devices, 
which China has been pursuing for the last several years.
    The second issue which I think bears on the magnitude-of-
vulnerability question, which I am concerned about, has to do 
with U.S. communications satellites, because China has made 
enormous investments in jamming. And there are a class of U.S. 
communication satellites which are protected, which are going 
to be more impervious to the Chinese capabilities that are 
coming on line, but much of our warfighting efficiency depends 
on being able to use commercial satellites and other kinds of 
military satellites which are unprotected.
    And I think if we lose the capacity embodied in those 
unprotected assets, then, of necessity, the burdens that would 
shift to our protected communications would be extremely high. 
And I haven't done the operations research to prove this, but 
my suspicion is that if we lose unprotected communications, the 
protected satellites that we have do not have the throughput to 
be able to sustain the kind of data requirements that would be 
necessary for success in conventional operations.
    So those would be at least two areas that I would focus on 
right away when one thinks about the vulnerability of our 
systems.
    Mr. Forbes. Dr. Butterworth, if you could briefly tell us 
what you think the assessment would be of how it would impact 
our capabilities.
    Dr. Butterworth. If I can figure out the button. There, I 
think that did it. Good. Thanks so much.
    Mr. Chairman, it is a bit difficult to answer. It is easy 
enough to point to specific vulnerabilities and to try to 
identify the consequences of the loss of particular satellites 
or satellite functions. But I think my view on this is that we 
need to have a broader perspective and try to understand how 
space support is integrated into the joint fight. We haven't 
done a very good job of that.
    We have tended to assume that there would be things from 
the space that would simply be available. I remember when I was 
running a project for General Cartwright years ago on foreign 
counterspace and so on, we would look at the annexes in PACOM 
[Pacific Command], for example, and the annex for space for 
their war plans was, ``We assume space works.'' Now, it is not 
that way anyway; there is a much, much bigger annex these days. 
But that is the kind of approach that I think still exists 
throughout our work on this problem. So I would urge that we 
try to understand the integrated effect of fighting and not 
having the space systems and also alternative ways to get 
around it.
    Second, just very briefly, we need to know an awful lot 
more not just about what is up there but what happens to our 
stuff. That can take a very long time. And I assume you will be 
digging into that in a subsequent hearing.
    And then, finally, we need to integrate all the different 
command and control communications functions that Ashley, among 
others, was just talking about.
    Mr. Forbes. Mr. Krepon.
    Mr. Krepon. Mr. Chairman, in my view, the greatest current 
vulnerability is a debris vulnerability.
    So, in 1985, the United States carried out a kinetic-energy 
ASAT test. Fourteen years later, a piece of debris from that 
test came within 1 mile of the newly launched International 
Space Station.
    The debris problem has been magnified by some very, very 
large number, particularly after the Chinese ASAT test, but not 
just that ASAT test. There have been breakups of rocket bodies; 
there have been collisions. The debris problem is enormous. And 
we move the Space Station, on average, once a year to try and 
get out of the way of a piece of debris.
    So the more a nation depends on space, the more vulnerable 
it becomes, just because of the debris problem--not even 
talking about Chinese counterspace capabilities.
    Mr. Forbes. Okay. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Warning satellites do a great job of helping us to keep an 
eye on enemies for not only our national security but our 
allies'. I wondered, though, do you believe--is it your opinion 
that we have been clear to our adversaries on the risk they 
would incur by interfering with those satellites?
    And I would start with you, Dr. Tellis.
    Dr. Tellis. I think we have tried to address the problem 
through indirection.
    Mr. Rogers. We haven't been direct enough?
    Dr. Tellis. I believe that is the case.
    Mr. Rogers. How about you, Dr. Butterworth?
    Dr. Butterworth. Well, we have--as you well understand, 
Chairman, we have a problem that we don't want to be----
    Mr. Forbes. Dr. Butterworth, hit that little button again. 
I know it is----
    Dr. Butterworth. Thank you very much. I need to be trained 
frequently.
    It is a difficult problem, as I know you gentlemen 
understand, that we don't want to be pointing out specific 
targets and specific vulnerabilities. So I agree that, yes, we 
have been sort of general in saying, ``Right, space is an 
important part of our military capabilities,'' without being 
terribly precise.
    Mr. Rogers. But do you think that we have explained to them 
there are consequences for messing with our satellites?
    Dr. Butterworth. Sir, there is no doubt in my mind that 
they understand that very well----
    Mr. Rogers. Okay.
    Dr. Butterworth [continuing]. That if they do something to 
our satellites, that means war. And I can't imagine why they 
would do something to a satellite if they weren't----
    Mr. Rogers. Mr. Krepon.
    Mr. Krepon. Mr. Chairman, both President George W. Bush and 
President Obama have the same declaratory policy with respect 
to attacks on our space assets. I think declaratory policy--if 
you mess with our satellites, you are messing with our vital 
national security interests--that is an important piece. We 
have got that piece.
    Mr. Rogers. Do you think we have been clear on that?
    Mr. Krepon. I think declaratory policy can't be a one-off. 
It needs to be repeated.
    Mr. Rogers. Well, let me ask this: Do you all believe that 
if our satellites were interfered with, that we have the 
capability to rapidly discern that and attribute who is 
disturbing the satellites?
    Mr. Krepon. Proper retribution depends on attribution. And 
there are issues with respect to attribution.
    Mr. Rogers. Explain.
    Mr. Krepon. Inferences could be drawn, but one of the 
reasons why I mentioned funding for space situational awareness 
to you is that that will help with attribution.
    There are two kinds of challengers to us in space: One are 
actually little guys, and one are major powers. And, actually, 
most of the interference so far has been from the little guys, 
and the interference that they are most interested in is 
interfering with broadcast satellites.
    Mr. Rogers. Right.
    Mr. Krepon. So our planning and strategies to respond, I 
think, depends on the category of adversary. But it all begins 
with attribution.
    Mr. Rogers. All right.
    Dr. Butterworth or Dr. Tellis, do either of you think that 
we are short in our ability to attribute interference? Or do 
you think we are covered on that?
    Dr. Butterworth. Sir, I think we are not just short, I 
think we are absent. Even if you are just talking about 
interference with communications satellites or something, it 
can take weeks and weeks and weeks to try to find out where 
that is coming from and then to try to find out who is actually 
doing it.
    I urge the committee in different sessions to ask people, 
you know, how long would it take us to know that something had 
happened to one of our satellites.
    Dr. Tellis. I would make two points on that.
    It depends on the kind of interference, and it depends on 
the context. There is some kind of interference that is 
palpable and manifest which is easier to attribute, and there 
are other kinds of interference, particularly electronic 
interference, that are harder to nail down. So that is point 
number one.
    Point number two is, if the interference occurs in 
peacetime, where everything else is as is, it might be easier 
to attribute. But if it occurs in the context of a crisis or in 
war, when other systems are stressed greatly, I think the point 
that Dr. Butterworth made about the difficulties of attribution 
will only get magnified.
    And, unfortunately, that is when attribution matters most. 
It is when other systems are stressed and it has a direct 
impact on your capability to prosecute military operations that 
we might pay the highest costs in our inability to attribute 
quickly.
    Mr. Forbes. Mr. McIntyre.
    Mr. McIntyre. Thank you very much.
    Dr. Tellis, on page 2 of your testimony, you say that one 
of the concerns is China has steadily expanded its capability 
to mount discrete physical attacks on installations integral to 
the space-ground segment.
    What is an example of that, how you could have a discrete 
physical attack on a ground segment?
    Dr. Tellis. By ``discrete,'' I meant individual attacks as 
opposed to all-out attacks. And a specific example would be 
China's increasingly precise ballistic missile force that 
allows them to actually target sites as small as individual 
buildings at great distance without using the total force to 
achieve those effects.
    Mr. McIntyre. Okay. Thank you. Thank you for clarifying 
that.
    Dr. Butterworth, the last several years, we have seen China 
develop the ability to shoot down a satellite, perform new 
types of satellite maneuvers, and get closer to launching a new 
heavy-lift rocket.
    When you look at this, what do you believe are the risks, 
when we talk about layering, as has been explained by Mr. 
Krepon, if we continue to rely on our legacy systems? Because I 
think the problem we have got here is our budget issues and 
knowing what to do, and unfortunately we know that too often 
military space programs are targeted for cuts.
    And so the question is, how much can we rely on legacy 
programs and how much is new development that we need to do in 
order to provide the kind of multilayered protection that we 
would need?
    Dr. Butterworth. Sir, I don't know any happy answer to 
that. It is going to take just a hell of a lot of money. We are 
going to have to start considering space as part of the joint 
fight, as part of the theater of operations, and that is going 
to require new systems.
    I can't think of another way out of it. There is no silver 
bullet, there is no one thing that we can do, there is no 
specially orbiting laser, X-ray, nuclear pump device that will 
provide the defenses that we need. We are going to have to take 
it from design as part of the joint operating forces.
    Is that responsive to your question?
    Mr. McIntyre. That helps.
    I don't know, since you used the term ``multilayered 
defense,'' Mr. Krepon, if you would like to respond to that.
    Mr. Krepon. The Stimson Center, where I work, put out a 
publication on how to tackle this problem of vulnerability and 
deterrence. And we had people writing from different points of 
view; we don't agree on some things. But every single one of 
these multilayered pieces we all agreed on.
    Now, the diplomacy piece is the most contentious, and I 
know that many of you have your doubts. But I disagree with Bob 
about whether China is clear about the consequences of messing 
with our satellites.
    We came to this understanding with Moscow during the cold 
war, but there was a whole lot more conversation between 
Washington and Moscow on strategic issues and space and nuclear 
than there is today between Washington and Beijing. So I am in 
favor of the diplomacy piece, too.
    Mr. McIntyre. What do you believe is the nearest-term 
challenge with regard to our counterdefensive capability?
    Mr. Krepon. You know, there are some vulnerabilities that 
we just can't escape, Mr. McIntyre. We can compensate for 
vulnerability as best we can, as budgets allow, but the 
vulnerability will continue to be there in space, and we can't 
talk ourselves out of that reality.
    Satellites are immensely important, but they can be found, 
and major powers have the capability to mess with them. We 
certainly do have the capability to mess with the satellites of 
adversaries. They have it for us.
    So how do we manage vulnerability as best we can? That is 
my view. That is the question.
    Mr. McIntyre. Yeah. Thank you.
    Thank you, Mr. Chairman.
    Mr. Forbes. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    Mr. Krepon, I think it bears repeating that you said pretty 
directly that we had more communication during the cold war 
between America and the Soviet Union than we have today between 
America and China regarding space issues. That is a pretty 
startling realization. And that doesn't necessarily mean 
diplomacy, but communication, because there are many ways that 
information can be given back and forth.
    So that would seem to be a startling risk factor in terms 
of both nations trying to behave in a rational fashion. Because 
the theory of mutually assured deterrence and the theory of 
most deterrence is that both actors understand each other's 
motivations. So I would think that would be an area for 
clarification.
    Mr. Krepon. One of the problems we had with the Soviet 
Union early on was that the military had an outsized stake on 
national security issues. And I remember--I am showing my age, 
but when the strategic arms limitation talks began and our 
diplomats started talking about Soviet strategic forces, the 
military pulled our diplomats aside and said, you know, our 
diplomats are not cleared to hear this. Well, we got through 
that.
    I think there is also dysfunction in China between the 
political leadership and the military. I don't see them meshing 
as well as I would like, particularly with respect to space.
    So I think one of the potential gains in having more 
conversations is having military and civil leaders in China 
sitting down with our folks to talk about what our red lines 
are.
    Mr. Cooper. Mr. Krepon, from a historical perspective, it 
is kind of amazing that--you know, Sputnik was such a long time 
ago; it is almost amazing that these other nations have taken 
so long to even begin to catch up. Because it has been many 
decades.
    And these are high-class problems in the military sense, in 
the sense that you are not talking about civilian casualties, 
necessarily, here if a space asset is hit by debris or--you 
know, these are replaceable gizmos.
    And, also, our military budget is completely within our 
discretion. And we represent a country with a per capita income 
of, what, $48,000 a person versus China with a per capita 
income of, what, $1,000 a person. And we are worried about 
maintaining our technological edge? You know, there shouldn't 
be that much of a concern if we want to do it. It is a question 
of will, not of means.
    Mr. Krepon. Mr. Cooper, our capabilities to mess with 
somebody else's satellites have never been greater. And, unlike 
nuclear deterrence, we don't really need to be in your face 
about it. So we don't test new devices, we don't flight-test 
ASAT missiles, we don't deploy at high levels of readiness the 
way we do, or did, on the nuclear.
    So the deterrence in space is largely inferred; it is not 
demonstrated in the same way. I think we still are able to get 
our points across with this latent or inferred capability: If 
you mess with us, the consequences could be immense, and they 
are of our choosing.
    Mr. Cooper. Thank you, Mr. Chairman.
    Mr. Forbes. Thank you.
    The gentleman from Texas, Mr. Conaway, is recognized for 3 
minutes.
    Mr. Conaway. Thank you, Mr. Chair.
    Thank you, gentlemen, for coming.
    Mr. Krepon, you piqued my interest when you talked about, 
we need rules for space. Most rule-based systems--and I am a 
CPA [certified public accountant] by profession--are only as 
good as the enforcement process. Who would enforce those rules 
against the Chinese?
    Mr. Krepon. Sir, we have rules of the road with respect to 
our navies, air forces, and ground forces operating in close 
proximity with Russia. These agreements exist. They do not have 
enforcement mechanisms. The nuclear arms reduction treaties 
that we have do not have enforcement mechanisms. The Non-
Proliferation Treaty comes closest through concerted efforts at 
sanctions.
    But we are talking not only about a rules-based system but 
a self-interested-based system, a national-interested-based 
system. So we----
    Mr. Conaway. But don't we wind up just--I hear that and 
understand it. But some would argue that we have deluded 
ourselves in a lot of areas thinking bad guys or folks on the 
other side are as honest as we are, or we try to be. And so I 
hear that.
    All three of you talked about hardening our existing fleet 
of satellites. What timeframe is that? How many years are you 
talking about, actually getting that accomplished?
    Mr. Krepon. Sir, if you are talking about weight, weight 
gain for satellites, that is a very hard thing. So we tend to--
--
    Mr. Conaway. Or protecting whatever you are trying to do to 
put self-defense mechanisms on them. You can't do those in 
space. This is a replace-the-entire-fleet issue, right?
    Mr. Krepon. I think, given the sunk costs, we are thinking 
about, or I think about incremental----
    Mr. Conaway. Okay.
    Mr. Krepon [continuing]. Gains over time.
    Mr. Conaway. Which orbits are most at risk? Every satellite 
up there, or just the ones in low Earth orbit?
    Dr. Butterworth. Sir, I think the Chinese have recently 
demonstrated a high-altitude, direct-ascent ASAT capable of 
reaching GEO [geostationary orbit]. And they have certainly 
demonstrated the ability to be able to launch and deploy small 
items of considerable interest that are very difficult to 
track, and they can do that at a variety of altitudes, as well.
    Mr. Conaway. Okay.
    Thank you all. I appreciate your comments this afternoon.
    I yield back.
    Mr. Forbes. Mr. Langevin is recognized for 3 minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses for being here today. I 
appreciate your testimony. I think it is a very important 
discussion.
    Obviously, ensuring information dominance provided by our 
satellites is a difficult but absolutely critical topic. And I 
certainly, again, appreciate the committee's focus on this 
issue.
    So I would like to--I would note that, given the 
proliferation of certain capabilities, this conversation 
certainly has relevance far beyond China. But I would like to 
focus on, for a minute, nonkinetic weapons, particularly high-
energy lasers. Obviously, such weapons come with a variety of 
effects on a platform as complex as a satellite.
    And what I want to know is, do we currently have the 
breadth of knowledge to characterize the full range of those 
effects across the spectrum of possible power levels and beam 
qualities?
    Dr. Butterworth. I do not believe that we do have that 
information at present, sir.
    We did some very small experiments a while ago, in the 
nineties, with the MSTI 5 satellite, and we cooked it as it 
came over New Mexico, I think it was, out of the Albuquerque 
range and were able to see how some of those effects were 
measured and what they might be.
    But in terms of being able to really characterize the 
impact on us, I don't think so. I think we are still at the 
stage of putting warnings on the satellites that they are being 
lased, but I am not quite sure that we see clearly the effects.
    Mr. Langevin. Okay.
    Anybody else care to comment?
    Okay. Well, given the well-known vulnerabilities of 
satellites, the number of technologies that are able to 
threaten these platforms, is there an understood tiering of 
importance? For example, is there a particular importance 
attached to jamming or dazzling particular satellites?
    Dr. Tellis. There seems to be a trend, at least in the 
Chinese literature after 2007, after the 2007 test, that China 
ought to look at means other than simply kinetic attacks. 
Because I think one of the things that both shocked and 
surprised them was the international revulsion about the debris 
problem that was magnified as a result of that test.
    And so certainly in recent years there has been a clear, I 
don't want to say a ``shift,'' but there has been an increase 
in the emphasis that China has placed essentially on soft kills 
or mission kills. Because it allows them to achieve their 
operational aims without contributing to destruction, physical 
destruction, of satellites, which obviously magnifies the 
debris problem, which affects them, as well.
    Mr. Langevin. And before my time runs out, how dependent is 
China's military and economically on U.S. systems such as GPS? 
And how long can we expect that dependence to persist, given 
current levels of investment in systems such as Beidou, if I am 
pronouncing that right?
    Dr. Butterworth. I think Beidou is just about to finish up.
    Isn't that right, Dr. Tellis?
    Yeah. So it should be just complete.
    What I suspect the Chinese are going to find, however, is 
that its performance is not up to that of the GPS system. And 
so they will very likely like to depend on the GPS system as 
long as possible, as well as using Beidou and trying to sell 
its appeal.
    Mr. Langevin. Okay.
    Thank you, Mr. Chairman. Yield back.
    Mr. Forbes. Mr. Byrne is recognized for 5 minutes.
    Mr. Byrne. Thank you.
    I have one question, really following up on Mr. Cooper's 
question. And I am new, so this may be something that is so 
elementary that you are going to have to answer a very 
elementary question.
    But you hear about the wealth or the productivity of China 
being so much less than the United States per capita and that 
they are spending so much less than we are on national defense. 
How in the world are they matching us in space in this sort of 
technology? Are they focusing a disproportionate share of their 
resources on that? Are we not focusing enough of our resources 
on it? How could a country like that come close to the United 
States of America?
    Mr. Krepon. For an elementary question, it is a very 
difficult one.
    It drives me nuts to read the trade literature about how 
much we put into space. And I think we are shortchanging space 
across the board, in my view.
    Bear in mind that it has taken China four decades to catch 
up with us in terms of--and they haven't caught up with us 
yet--in terms of space exploration. They are still behind us, 
in my judgment, across the board.
    But they are working hard, and they are taking shortcuts. 
So is this worrisome? In my view, it is. And resources can't 
solve the problem, but I don't think you can begin to solve the 
problem without more resources on our end.
    Mr. Byrne. I know I have just a little bit of time. I just 
want to make sure I get down to this. What should we be doing 
that we are not doing to stay significantly ahead of the 
Chinese?
    Mr. Krepon. Here I am going to provoke Ashley and Bob.
    I think that on the counterspace side, I think we are doing 
a fair amount. The thing that sticks in my craw has to do more 
with the exploration piece. And, you know, it would be--we are 
having trouble building satellites on time and on budget. We 
are getting a little bit better, but we are handicapping 
ourselves so much by the way we do things, our procurement 
policies. We are just not on time, on budget.
    Dr. Tellis. Could I take a crack at answering that in a 
direct way?
    I think we have two weaknesses. Our space systems are too 
concentrated in their capability and they are too few, which 
means that any loss of even a single system has a 
disproportionate effect on our capacity.
    We have done this for both technological and economic 
reasons. If you move to an alternative architecture of smaller 
satellites, more flexible, more distributed capabilities, it is 
going to be more costly, but the upside is that we will have 
greater resilience and greater ability to compensate for 
losses.
    The second weakness that we have is that we have a very 
poor reconstitution capacity. If we lose some of these space 
systems in a war, it is going to take a long time before we can 
get replacements up there. And that is everything from a lack 
of spares, in terms of the space systems themselves, all the 
way to a long timeline with respect to launch.
    So we have simply not configured our capacities on the 
principle that these assets are at risk. And that is the point 
I think that Dr. Butterworth was making, that we have simply 
been content to assume that we will have these capabilities no 
matter what.
    If we begin to shift that premise and think about these 
capabilities as essentially nonavailable in some circumstances, 
I think we would begin to think of our investments in space in 
a very different way.
    Mr. Forbes. The gentleman's time has expired.
    And we saved the clean-up spot for the distinguished 
gentleman from the great State of Mississippi, Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Space situational awareness is an issue that influences 
every space asset beyond those of national security space. The 
animation showing the creation of debris from the 2007 China 
ASAT test or the 2009 Iridium-Cosmos collision are dramatic 
depictions of the consequence of the laws of motion in our 
space environment.
    I suspect most people in the room today are familiar with 
the recent hit movie ``Gravity.'' I think the movie did 
everyone here a service by bringing to light the reality of the 
precarious situation of space operations in our orbitable 
environment. It is obvious that the consequences of a conflict 
in space could be devastating to nearly all space-faring 
nations.
    So, with that, I would like to get the witnesses' thoughts 
on the priority of space situational awareness [SSA] for U.S. 
space security. And, also, is the United States Air Force Space 
Command the proper entity into which we should expand a greater 
SSA responsibility? And if not the Space Command, then who?
    And we will start with Dr. Tellis.
    Dr. Tellis. I think space situational awareness is the 
foundation for any kind of defensive counterspace that the U.S. 
has to invest in.
    I accept the point that Mr. Krepon made in principle, that 
we don't need to overinvest in offensive counterspace because 
we have latent capabilities to do that if required under 
conditions of extremis.
    But if we have to do serious defensive counterspace, the 
challenge of being able to attribute where the threats are 
coming from, what the nature of the threat is all takes on an 
entirely different coloration. And we certainly have to put 
resources first and foremost into space situational awareness, 
because nothing else with respect to defensive counterspace is 
going to work if you don't have adequate situational awareness. 
So that is point number one.
    Point number two, I think my view is that Air Force Space 
Command is the logical place in which this should reside 
because the Air Force maintains the largest catalogue of space 
objects out there. It has the resources, both terrestrial and 
space-borne, to maintain this capability. And I think starting 
from scratch or moving it to a different organization at this 
point would involve probably more trouble than it is worth.
    Mr. Palazzo. Dr. Butterworth.
    Dr. Butterworth. Yes, sir, I would concur with what Dr. 
Tellis was saying, with a couple of qualifications.
    One is that I think we should emphasize space situational 
awareness from orbit. And some of those orbits should be very 
high so that we are looking down. There may be an effort to try 
to make things difficult to detect. Nothing is equally 
difficult to detect from all angles. We should have all angles 
from which we could survey what is out there in space.
    Secondly, with regard to the Air Force's capabilities, I 
would note that the record of the JMS [JSpOC Mission System] 
out there, or the JSpOC [Joint Space Operations Center], is not 
overwhelmingly impressive. And so I hope we can do a lot better 
with that soon.
    Mr. Palazzo. Thank you.
    Mr. Krepon. Sir, I would like to put a bug in your ear 
about space traffic management, because situational awareness 
goes hand-in-hand with traffic management. One of the reasons 
why we want situational awareness is to get early warning, but 
it is also to avoid collisions with debris or, heck, another 
satellite.
    So we haven't really thought hard about space traffic 
management. How do we do that? Who does it? How does it work? 
Capabilities are so disproportionate. We are the best. But how 
do we convey messages? How do we develop patterns of safe 
traffic in space? We are behind the eight ball on this one.
    Mr. Palazzo. Thank you.
    Mr. Forbes. And, gentlemen, we once again thank you for 
being here.
    I thank my good friend, Mike Rogers, for allowing us to 
join and have this joint hearing.
    As I told you earlier today, we want to give you 60 seconds 
or so for any wrap-up that you have of something that you think 
you need to clarify or that we left out. Because it is not just 
important, this hearing, but it is important, the record we are 
building of this hearing, to be used later.
    Dr. Tellis, if you don't mind, we will start back with you 
because you had the first opening remarks.
    Dr. Tellis. Thank you, Mr. Chairman.
    I just want to make one point, which Mr. Krepon referred 
to, because I think it is important.
    I am not as sanguine about the idea that we will have a 
collaborative solution or even an equilibrium solution with 
respect to counterspace where China is concerned in a way that 
we had with the Soviet Union during the cold war. And there is 
a very important reason for that, and it goes beyond diplomacy.
    There was no asymmetric dependence on space at the height 
of the cold war. Both the Soviets and the United States, 
certainly in the latter half of the cold war, came to depend on 
space almost equally for the success of their military 
operations. And, therefore, Soviet incentives to engage in 
counterspace activities of the kind that the Chinese are 
contemplating were much smaller.
    China's dependence on space is not as significant as the 
U.S. dependence on space. And it is that delta independence 
that gives China much greater freedom of action than we 
recognize. It is something to keep in mind.
    There is a second point. During the old cold war days, the 
Soviets had the conventional advantage. And, therefore, if 
conflict broke out, they could have been content prosecuting 
their operational aims through the use of conventional forces 
alone because that was their strong suit.
    The Chinese see themselves as not having that kind of a 
conventional advantage. And, therefore, the incentives they 
have to attack us asymmetrically, to attack our space assets, 
to attack our information architecture, and so on and so forth 
is much greater.
    And so I think we need to be sensitive to the differences 
that exist in the U.S.-China case compared to the U.S.-Soviet 
case, which makes the burden on the objective of protecting our 
space assets even more.
    Thank you.
    Mr. Forbes. Thank you, Dr. Tellis.
    Dr. Butterworth.
    Dr. Butterworth. Thank you, Chairman. And thank you again 
for having this excellent hearing.
    I will endorse almost everything that my colleague to my 
right here said, except for the part about the Soviet Union. 
Even they didn't use space in the way that we have. Nobody does 
it like we do. We showed the world first in Desert Storm the 
integration of space assets into tactical operations, and we 
have gone way beyond what we could do then in the ensuing 25 
years, or almost 25 years.
    Nobody else has tried to do that. They may use it for 
strategic reconnaissance, they may use it for selected 
communications, and so on, but not integrated into warfare the 
way that we have.
    And so, to try to understand the relationship with China in 
terms of parallelism or symmetry--that is, you know, that we 
can shoot their satellites and they can shoot ours--misses the 
point that they don't use space in the way that we do, nor, as 
I mentioned, did the Soviet Union.
    And so when I talk about trying to take into account the 
joint fight perspective, that is the most important part of it, 
is to understand that they are looking at space with very 
different eyes, just as Dr. Tellis was just suggesting.
    Thank you again.
    Mr. Forbes. Thank you, Dr. Butterworth.
    Dr. Krepon.
    Mr. Krepon. Mr. Chairman, China's vulnerability in space is 
growing every year--every year. And the question that you are 
exploring here, for which I thank you, is, how do we leverage 
this to influence Beijing's national calculus? And I don't feel 
comfortable that we understand Beijing's national calculus 
enough. So I would like more conversations, U.S.-China, on 
this.
    Mr. Forbes. Okay.
    Gentlemen, thank you all.
    Thank all of our Members for being here.
    Mr. Rogers, thank you.
    And, with that, we are adjourned.
    [Whereupon, at 4:30 p.m., the subcommittees were 
adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            January 28, 2014

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 28, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T6965.001
    
    [GRAPHIC] [TIFF OMITTED] T6965.002
    
    [GRAPHIC] [TIFF OMITTED] T6965.003
    
    [GRAPHIC] [TIFF OMITTED] T6965.004
    
    [GRAPHIC] [TIFF OMITTED] T6965.005
    
    [GRAPHIC] [TIFF OMITTED] T6965.006
    
    [GRAPHIC] [TIFF OMITTED] T6965.007
    
    [GRAPHIC] [TIFF OMITTED] T6965.008
    
    [GRAPHIC] [TIFF OMITTED] T6965.009
    
    [GRAPHIC] [TIFF OMITTED] T6965.010
    
    [GRAPHIC] [TIFF OMITTED] T6965.011
    
    [GRAPHIC] [TIFF OMITTED] T6965.012
    
    [GRAPHIC] [TIFF OMITTED] T6965.013
    
    [GRAPHIC] [TIFF OMITTED] T6965.014
    
    [GRAPHIC] [TIFF OMITTED] T6965.015
    
    [GRAPHIC] [TIFF OMITTED] T6965.016
    
    [GRAPHIC] [TIFF OMITTED] T6965.017
    
    [GRAPHIC] [TIFF OMITTED] T6965.018
    
    [GRAPHIC] [TIFF OMITTED] T6965.019
    
    [GRAPHIC] [TIFF OMITTED] T6965.020
    
    [GRAPHIC] [TIFF OMITTED] T6965.021
    
    [GRAPHIC] [TIFF OMITTED] T6965.022
    
    [GRAPHIC] [TIFF OMITTED] T6965.023
    
    [GRAPHIC] [TIFF OMITTED] T6965.024
    
    [GRAPHIC] [TIFF OMITTED] T6965.025
    
    [GRAPHIC] [TIFF OMITTED] T6965.026
    
    [GRAPHIC] [TIFF OMITTED] T6965.027
    
    [GRAPHIC] [TIFF OMITTED] T6965.028
    
    [GRAPHIC] [TIFF OMITTED] T6965.029
    
    [GRAPHIC] [TIFF OMITTED] T6965.030
    
    [GRAPHIC] [TIFF OMITTED] T6965.031
    
    [GRAPHIC] [TIFF OMITTED] T6965.032
    
    [GRAPHIC] [TIFF OMITTED] T6965.033
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 28, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. FORBES

    Mr. Forbes. The U.S. has changed its attitudes to the Space Code of 
Conduct over the last several years: from opposition or benign neglect 
to a stated willingness to engage in conversations. Has the space 
environment changed for the better that U.S. participation is 
warranted? Will the Space Code of Conduct deliver on what is our 
principal objective: a space environment free of threats to our U.S. 
national security?
    Dr. Tellis. The Space Code of Conduct cannot--and will not--deliver 
on the principal U.S. objective of preserving a space environment free 
of threats to U.S. space systems. The U.S. attitude to the Code of 
Conduct has indeed varied over the years, but that is more because of 
differences in attitudes between different administrations in 
Washington and not because the Code itself has become more effective in 
protecting American interests. The Code must be understood for what it 
is: it is a confidence-building measure at best. It will not prevent 
states from developing counterspace programs nor can it prevent any 
state from mounting counterspace operations against the United States 
during a crisis or in war. The Code, therefore, cannot eliminate the 
most serious dangers to U.S. space systems. If successful, the best the 
Code can do is to restrain states from engaging in kinetic anti-
satellite tests that are debris-generating in peacetime: while this 
would be an important achievement, it is more likely that any such 
restraint--if it materializes--would ensue because it advances the 
national interests of the various spacefaring powers rather than 
because of their formal adherence to the Code per se. In any event, the 
issue of whether the United States should be an adherent to the Code 
must be assessed on whether the Code in its totality advances U.S. 
space interests. Even the most current version of the Code does not 
unambiguously advance that objective yet. Consequently, the United 
States should stay involved in the discussions on the Code, but not 
commit to adhering to it just yet.
    Mr. Forbes. How aggressive is China pursuing counterspace 
technology that would put at risk the open and peaceful use of space? 
What insight do we have into their intent for developing such 
technology? What motivates them, and what would de-motivate them in 
this pursuit?
    Dr. Tellis. China today has the most aggressive counterspace 
program of any state in the international system. The principal target 
of this counterspace program is, first and foremost, the United States. 
The motivations animating the Chinese counterspace program are simple: 
China views the possibility of a conflict with the United States as 
serious, and is preparing a variety of military capabilities to deal 
with that contingency. It has a healthy appreciation of U.S. military 
superiority and seeks ways to mitigate America's operational advantages 
across the board. China's counterspace program is part and parcel of 
this effort. Given China's larger geopolitical interests, there is no 
way to induce Beijing to forego its counterspace investments. 
Consequently, the United States must ensure that no matter what China's 
counterspace capabilities may be, U.S. military operations can 
nonetheless be successfully prosecuted in every scenario of relevance 
to American interests.
    Mr. Forbes. The U.S. has changed its attitudes to the Space Code of 
Conduct over the last several years: from opposition or benign neglect 
to a stated willingness to engage in conversations. Has the space 
environment changed for the better that U.S. participation is 
warranted? Will the Space Code of Conduct deliver on what is our 
principal objective: a space environment free of threats to our U.S. 
national security?
    Dr. Butterworth. The space environment has not changed for the 
better, and the Code will not help reduce space threats to our national 
security. Chinese military space R&D and deployments are particularly 
vigorous and clearly aimed at degrading the effectiveness of U.S. 
national security systems.
    The most effective measures toward keeping space safe and secure 
for the benefit of all continue to be led by the United States, working 
through United Nations committees, alliances, and bilateral agreements, 
and providing conjunction analysis and collision warnings pro bono to 
government and commercial space operators around the world.
    The Space Code of Conduct offers no practical support for the 
United States' efforts and could prove diplomatically troublesome. The 
Code is silent about important definitions and any procedures for 
monitoring, verification, and sanctions; it calls for sharing 
information about national security strategies and programs; it calls 
for complying with and promoting a treaty the U.S. Senate refused to 
ratify; and as an excuse for the dangerous deficiencies in its 
drafting, it declares that it is not legally binding.
    And in any event, the Code would address less than half of the 
world's orbital launch activity. Three of the countries on record as 
opposing the Code (Russia, China, and India) accounted for 48 of the 78 
successful space launches to orbit in 2013.
    Mr. Forbes. How aggressive is China pursuing counterspace 
technology that would put at risk the open and peaceful use of space? 
What insight do we have into their intent for developing such 
technology? What motivates them, and what would de-motivate them in 
this pursuit?
    Dr. Butterworth. China's counterspace programs are energetic and 
diverse because they are critical to China's hopes for being able to 
challenge U.S. interests militarily. China clearly appreciates the 
significance of space systems to U.S. military power projection and so 
is driven to develop effective counterspace capabilities. Most recently 
in the South and East China Seas, China has been using implied military 
threats to assert unilateral prerogatives in areas of concern to the 
U.S. and its allies and partners. China cannot be de-motivated in this 
pursuit so long as it continues to use military threats to change 
international norms, practices, and procedures.
    Mr. Forbes. The U.S. has changed its attitudes to the Space Code of 
Conduct over the last several years: from opposition or benign neglect 
to a stated willingness to engage in conversations. Has the space 
environment changed for the better that U.S. participation is 
warranted? Will the Space Code of Conduct deliver on what is our 
principal objective: a space environment free of threats to our U.S. 
national security?
    Mr. Krepon. The George W. Bush was not enthusiastic about an 
international code of conduct for space-faring nations. It placed a 
high priority on freedom of action and wished to avoid any diplomatic 
undertakings in this domain. This view became harder to sustain after 
the PLA's 2007 ``hit-to-kill'' ASAT test, which produced the worst man-
made debris consequences since the Space Age began. After this test, 
some rethinking appeared warranted about rules of the road to set norms 
of responsible behavior in space--especially regarding ASAT tests that 
produce mutating, long-lasting debris fields.
    Presidential candidate Barack Obama held a positive view about a 
properly crafted code of conduct for space-faring nations, but his 
administration moved very deliberately on this initiative. Other issues 
had a higher priority, and the executive branch and the Pentagon 
undertook lengthy reviews on how a properly crafted code of conduct 
might affect U.S. national and economic security. After these reviews 
were completed, the administration announced that it could support a 
properly crafted code of conduct. The administration has been very 
involved in the drafting process led by the European Union. But this 
process is also going slowly. Progress has been made, but three key 
hold-outs remain: China, Russia, and India.
    In my view, the space environment will become more hostile to 
spacecraft and human spaceflight as long as the potential for debris 
proliferation is greater than the potential for debris mitigation. 
Debris is lethal and does not respect the nationality of spacecraft or 
manned spaceflight. We face the real potential that some heavily 
trafficked orbits could become dead zones as a result on debris hits 
with pin-ball effects, just as some locations at sea are dead fishery 
zones. A code of conduct for space could help prevent this outcome by 
establishing a norm against ``hit-to-kill'' ASAT tests.
    Backers of a space code of conduct can't promise ``a space 
environment free of threats to our U.S. national security.'' Even with 
a well-designed code, U.S. satellites will continue to be vulnerable 
requiring, as I testified, multi-layered deterrence whether or not this 
diplomatic initiative succeeds.
    Mr. Forbes. How aggressive is China pursuing counterspace 
technology that would put at risk the open and peaceful use of space? 
What insight do we have into their intent for developing such 
technology? What motivates them, and what would de-motivate them in 
this pursuit?
    Mr. Krepon. According to published reports, the PLA is testing 
capabilities and practicing techniques that could be applied against 
satellites. These capabilities are not unique to China; all major 
space-faring nations, including the United States, can be expected to 
possess them. When any country tests such capabilities, others might 
infer hostile intent, or preparations to be ready to employ these 
techniques in the event of authorization to engage in warfare. Or they 
might serve deterrent purposes. Or these practices might suggest, in 
China's case, a perceived need to play catch-up ball. I am not a China 
scholar, so I am not well versed enough to hazard a guess about which 
of these possible motivations, or which combination of motivations, 
applies.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. How does the U.S. deter China from entering a conflict 
in space?
    Dr. Tellis. The best way for the United States to deter China from 
expanding a conflict to space would be to invest in maintaining all the 
necessary warfighting capabilities that (i) promise to inflict greater 
pain on China than would be suffered by the United States in any space 
war; and (ii) permit the U.S. military to secure its operational 
objectives terrestrially despite any counterspace operations that may 
be mounted by China. In other words, the best deterrence strategy is 
one where the United States clearly demonstrates that it has both the 
capability and the willingness to run any space-relevant offence-
defense arms race provoked by China--and win.
    Mr. Rogers. What are the national security implications if our 
military lost access to space capabilities in a conflict with the 
People's Republic of China? Beyond national security, if a system such 
as Global Positioning System (GPS) was threatened, what would be the 
potential economic and civil impact on the United States?
    Dr. Tellis. I think it would be safe to say--as a first cut--that 
the loss of U.S. space capabilities to China in a conflict would be 
simply catastrophic to the United States. There is no other national 
military that relies on space for its operational effectiveness as much 
as the U.S. military. Nor is there any other society that relies on 
space for its economic wellbeing as much as the United States. The loss 
of U.S. access to space for both military and civilian endeavors would, 
therefore, be calamitous. Given this fact, it is unfortunate that we 
still do not have a comprehensive understanding of what exactly would 
entail operationally if the U.S. military were to lose access to space 
in a conflict with China. I believe that assessments of this kind are 
just beginning and it will probably be a while before they are 
complete.
    Mr. Rogers. What steps is China taking to increase their Space 
Situational Awareness (SSA)? What are the risks of this, and what role 
will their SSA ability play in their counterspace systems?
    Dr. Tellis. China is beginning to build the foundations for a 
comprehensive Space Situational Awareness (SSA) capability. In recent 
years, Beijing has embarked on a variety of technical investments to 
detect and track orbital bodies passing over China through the use of 
specialized optical telescopes and theodolites, laser satellite-
tracking devices such as rangefinders, large phased-array radars, 
various ground- and space-based signals intelligence systems, and 
radars associated with surface-to-air missile systems, all of which are 
capable of searching, acquiring, tracking and classifying objects of 
interest to Chinese strategic planners. China has also sought to 
collaborate with various international research organizations, 
particularly in Europe and Asia, to identify U.S. space systems that 
are not identified in the open space catalogs maintained by NASA and 
the U.S. Air Force Space Command.
    The objectives of these activities, in the first instance, consist 
of denying the United States the targeting data that would enable it to 
interdict China's land-based strategic nuclear platforms and key 
elements of its conventional forces. Accurate information about U.S. 
and third-party space reconnaissance assets and over-flight patterns is 
sought in order to permit Chinese commanders to issue the appropriate 
notifications to their field components in regard to movement and 
dispersal operations, which are timed to occur outside the window of 
observation. The Chinese quest for more accurate SSA, however, is 
equally driven in the final instance by their desire to nullify 
American space systems, either kinetically or through soft kills or 
through informational denial operations: all these objectives require 
Beijing to first know the capabilities of the U.S. space platforms it 
seeks to defeat, their orbital parameters and their spatial 
relationship to other orbiting bodies. The ultimate aim of China's SSA 
investments, therefore, is to underwrite its larger counterspace 
ambitions.
    Mr. Rogers. Over the past several years, there has been much 
discussion on an international agreement for a Space Code of Conduct, 
to establish ``norms and confidence-building-measures'' according to 
its advocates. Do you think the Chinese will sign up to this sort of 
agreement? And if they do, do you think they will stop their 
counterspace program because of the agreement?
    Dr. Tellis. It is not clear right now whether China will sign on to 
any Space Code of Conduct, although Beijing has agreed recently--after 
many years of opposition--to join in discussions of a Code. Even if 
China were to adhere to any future Code of Conduct, it will not 
terminate its counterspace programs, which are driven by strategic 
necessities that transcend the requirements of public diplomacy.
    Mr. Rogers. Please describe the leadership of the Chinese space 
program, and the relationship between the military and civilian 
elements. What are the risks of U.S. cooperation with China's civil 
space program? Please describe the extent of efforts by the Chinese to 
illegally acquire U.S. technology.
    Dr. Tellis. It must be remembered that China's space program is a 
remarkably integrated effort. Unlike the United States, for example, 
where a significant divide exists between civilian and military space 
activities, and where diversity, heterogeneity, and atomistic 
competition are the norm in both realms, civilian and military space 
programs in China are not only centrally directed but are also mutually 
reinforcing by design. Although specific activities in the Chinese 
space program may be biased towards civilian or defense applications, 
the entire enterprise, strictly speaking, is a strategic program with 
no firewalls whatsoever between the civilian and the military. This 
``unity-in-difference,'' centered on the primacy of military 
considerations which suffuse even the scientific, domestic, and 
commercial elements of the space effort, is protected at the 
programmatic level by the organizational structure of the Chinese 
system. China's State Council oversees the Ministry of Industry and 
Information Technology, the State Owned Assets Supervision and 
Administration Commission, and the Ministry of Science and Technology, 
which through different lines of control oversee the research academies 
and the defense industry groupings that produce the various 
technologies for either the People's Liberation Army (through the 
General Armaments Department (GAD)) or the various ministries that use 
space products and services. The links between military and civilian 
space are, therefore, far more robust than often appear in 
organizational charts.
    In this context, the China National Space Administration, which is 
sometimes depicted as China's National Aeronautics and Space 
Administration (NASA), is essentially a civilian front for 
international cooperation and a liaison between the military and 
Chinese defense industry. The military interests of the Chinese state 
in the space program are thus affirmatively protected, even though 
Chinese policymakers rarely, if ever, own up to the military dimensions 
of their space endeavors. As Kevin Pollpeter summarized it succinctly, 
``China's space program is inherently military in nature . . . Indeed, 
China's space program is a military-civilian joint venture in which the 
military develops and operates its satellites and runs its 
infrastructure, including China's launch sites and satellite operations 
center.'' The policy consequence of this fact, from an American 
perspective, is that any collaboration with China's ``civilian'' space 
program inevitably ends up aiding its military.
    Mr. Rogers. How does the U.S. deter China from entering a conflict 
in space?
    Dr. Butterworth. For China, conflict with the U.S. in space is 
about military advantage on earth. Space systems are plainly an 
integral and crucial element of American military power, especially 
projection power, which is why China is working hard at counterspace 
capabilities. But for the same reason, the U.S. response to an attack 
on its space systems would not be limited to counterattacks in space 
but would reasonably include targeting facilities that housed, enabled, 
or facilitated the counterspace attacks. That is, the importance of 
space support to U.S. military operations is both why China would 
attack in space and why the conflict could not be confined to space.
    Consequently, to deter China from a conflict in space is to deter 
China from a terrestrial conflict with the U.S., a calculation that 
includes assessments of American projection power, regional military 
balances, alliances, partnerships, and other ``whole of government'' 
considerations. The United States wants to help China become a 
constructive partner in the community of nations, but doing so 
apparently will first require denying China any benefits from bullying 
its neighbors.
    Mr. Rogers. What are the national security implications if our 
military lost access to space capabilities in a conflict with the 
People's Republic of China? Beyond national security, if a system such 
as Global Positioning System (GPS) was threatened, what would be the 
potential economic and civil impact on the United States?
    Dr. Butterworth. Bluntly, if we lose space we do not play. Space 
provides the warp and weft of the highly integrated forces we bring to 
the joint fight. Without space, the battle team unravels, and the 
separate threads more easily broken.
    The economic and civil effects of a loss of GPS on the U.S. are 
also incalculable, primarily because of the widespread dependence on 
the timing signal. Navigation is important but probably accounts for 
about one-seventh of the usage of GPS. Broader losses would come from 
the loss of timing for the internet, for commercial transactions, for 
digital communications, and many other elements of our infrastructure.
    Mr. Rogers. What steps is China taking to increase their Space 
Situational Awareness (SSA)? What are the risks of this, and what role 
will their SSA ability play in their counterspace systems?
    Dr. Butterworth. China is developing and conducting on-orbit 
demonstrations of satellites and satellite control techniques that can 
be used for an intelligence preparation of the space battlefield. China 
evidently hopes to gain substantial insight into the U.S. ``space order 
of battle'' by using sensors to detect and track satellites from 
various positions in orbit, and by using close proximity operations to 
refine estimates of the function and purpose of satellites in orbit. 
The results could provide China a guide to which U.S. satellites to 
attack, when, and in what fashion to best complicate different phases 
of U.S. terrestrial operations.
    Mr. Rogers. Over the past several years, there has been much 
discussion on an international agreement for a Space Code of Conduct, 
to establish ``norms and confidence-building-measures'' according to 
its advocates. Do you think the Chinese will sign up to this sort of 
agreement? And if they do, do you think they will stop their 
counterspace program because of the agreement?
    Dr. Butterworth. China has repeatedly said that it is opposed to 
the European/Space Code of Conduct because China wants an international 
agreement about weapons in space, while the Code focuses on debris (for 
which adequate international fora have been in operation for several 
years).
    China has proposed negotiating an agreement that would prohibit 
placing weapons in space but has insisted that such an agreement would 
not prohibit ground-based anti-satellite weapons.
    China's counterspace program is rooted in China's determination to 
achieve sufficient military power to be able to win a regional military 
confrontation with the United States. China will not stop its 
counterspace program unless it turns to established diplomatic 
procedures for resolving disputes peacefully and abandons its military 
bullying.
    Mr. Rogers. Please describe the leadership of the Chinese space 
program, and the relationship between the military and civilian 
elements. What are the risks of U.S. cooperation with China's civil 
space program? Please describe the extent of efforts by the Chinese to 
illegally acquire U.S. technology.
    Dr. Butterworth. Detailed insights into leadership of the Chinese 
space program and the relationship between the military and civilian 
elements can be provided by China experts such as Dean Cheng, and they 
can certainly help the U.S. understand some of the background of 
Chinese actions. But regardless of whether an event resulted from 
military arrogance or civilian impotence, the Chinese government must 
be held responsible for its actions.
    Chinese efforts to acquire U.S. technology illegally include the 
traditional panoply of technical means together with extensive contacts 
with Americans in various meetings and circumstances. One area of worry 
for space operations is ensuring the integrity and security of 
components and subsystems, including computer chips.
    Mr. Rogers. How does the U.S. deter China from entering a conflict 
in space?
    Mr. Krepon. As noted in my testimony, by a multilayered approach 
that includes the ability to cause significant harm to a potential 
attacker, whether in space or elsewhere; by having space situational 
awareness so as to learn as quickly as possible about potential attacks 
and to determine the perpetrator; by disaggregating and diversifying 
our capabilities in space; and by increasing protective measures for 
satellites when they are cost-effective at the margin.
    Mr. Rogers. What are the national security implications if our 
military lost access to space capabilities in a conflict with the 
People's Republic of China? Beyond national security, if a system such 
as Global Positioning System (GPS) was threatened, what would be the 
potential economic and civil impact on the United States?
    Mr. Krepon. This scenario--what some have characterized as a 
``space Pearl Harbor''--would place the United States at a profound 
disadvantage, unless the United States retained the ability and will to 
retaliate in ways that also placed China at a similar or worse 
disadvantage. I would expect this to be the case.
    Mr. Rogers. What steps is China taking to increase their Space 
Situational Awareness (SSA)? What are the risks of this, and what role 
will their SSA ability play in their counterspace systems?
    Mr. Krepon. China's space situational awareness lags well behind 
that of the United States. Indeed, I believe that the United States has 
provided conjunction warnings to China when one of its satellites or 
space missions might be imperiled by debris that we can track better 
than they--including debris generated by the PLA's 2007 ASAT test. The 
asymmetry of SSA capabilities would place China at a disadvantage in 
the event of warfare in space, and would pose the question to China's 
leadership of whether limited or all-out counter-space attacks would be 
worth the risk. Improved U.S. space situational awareness would 
reinforce deterrence against surprise attacks.
    Mr. Rogers. Over the past several years, there has been much 
discussion on an international agreement for a Space Code of Conduct, 
to establish ``norms and confidence-building-measures'' according to 
its advocates. Do you think the Chinese will sign up to this sort of 
agreement? And if they do, do you think they will stop their 
counterspace program because of the agreement?
    Mr. Krepon. The Chinese leadership's position is evolving. 
Initially, Beijing and Moscow rejected a code of conduct, insisting on 
an unverifiable and ambitious treaty to ban some kinds of space 
warfare, but not the counter-space capabilities they are developing. 
Last fall, Beijing and Moscow endorsed in principle the notion of a 
code of conduct, but not the draft code developed by the European 
Union. Beijing and Moscow have agreed that some types of transparency 
and confidence-building measures could have utility, and they have 
enumerated a number of useful measures that could be incorporated into 
an international code of conduct They have also stated that a code of 
conduct should be an interim step to an ambitious treaty that, in my 
view, is unlikely to be negotiated.
    The realization of a properly crafted space code of conduct will 
depend on several conditions, including the acceptance by China and 
Russia of pragmatic and useful ``rules of the road'' for space--
including consultative measures and the end of ASAT testing that causes 
long-lived space debris.
    A code of conduct would not stop the development of counter-space 
capabilities, because such capabilities reside in technologies that 
could have peaceful as well as malign purposes. Consequently, whether 
or not an international space code of conduct is finalized, I do not 
foresee the United States getting out of the counter-space business. 
Nor would it be wise to do so.
    Mr. Rogers. Please describe the leadership of the Chinese space 
program, and the relationship between the military and civilian 
elements. What are the risks of U.S. cooperation with China's civil 
space program? Please describe the extent of efforts by the Chinese to 
illegally acquire U.S. technology.
    Mr. Krepon. A subsidiary reason why I support negotiations on an 
international space code of conduct is to learn more about civil-
military relations in China as they apply to space. I know very little 
about how well Chinese leaders have familiarized themselves with the 
PLA's plans or understand the consequences of their military's 
doctrine, test practices and exercises. I presume that the PLA briefed 
the Party leadership about its counter-space programs prior to the 2007 
ASAT test that endangered over 200 satellites and manned space 
programs--including their own. But I don't know whether the Party 
leadership received a detailed preview of the 2007 test, and whether 
they knew enough to ask about the debris consequences of this test. I 
do know that the Foreign Ministry remained silent for two weeks after 
this ASAT test.
    The advent of an international code of conduct for responsible 
space-faring nations could prompt more internal and international 
consultations on these matters.
    As for civil space cooperation with China, the risks of possible 
technology loss have to weighed against potential gains from 
cooperation. I recall that there was considerable anxiety to the Nixon 
administration's 1972 agreement with the Soviet Union to a docking 
mission for the Apollo and Soyuz spacecraft. In retrospect, these 
anxieties proved to be unwarranted. Cooperation between Washington and 
Moscow in space continues on a daily basis on the International Space 
Station--despite many other difficulties the United States faces with 
Russia.
    I am a supporter of exploring ways for the United States to 
cooperate with China in space, without compromising sensitive 
technologies. I believe that the Congressional prohibition of bilateral 
engagements between NASA and its Chinese counterpart is unwise.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CARSON

    Mr. Carson. How quickly are we able to reconstitute capabilities 
like GPS or communications networks if one or more of our satellites 
was destroyed or otherwise taken offline? In your opinion, are 
additional investments necessary to increase this pace? If so, which 
investments?
    Dr. Tellis. In general, the U.S. capability to reconstitute its 
space-based communications satellites and the GPS system is a function 
of their orbital altitudes, the character of an adversary attack, and 
the availability of ready spares and rapid launch capabilities in the 
United States. A more careful modeling of these factors is essential 
before your question can be answered satisfactorily. In general, 
however, I would say the following: One, the United States must move 
with alacrity to develop a rapid launch capability, which we still 
don't have. There are several new private sector solutions that are 
innovative and possible cheaper, which ought to be investigated. Two, 
we need to reassess the need and the number of satellites spares for 
high priority operations, and to provide the budgetary support for 
maintaining the requisite spares inventory. Three, the most likely 
threats to our space systems will be less kinetic destruction and more 
suppression of links that transmit their data; dealing with this 
challenge is more complicated because its requires multiple and 
distributed solutions.
    Mr. Carson. Can you describe how increased transparency into 
counterspace capabilities has impacted the perception of hosting 
military payloads among commercial satellite operators? What steps can 
we take to reassure concerned commercial operators of the safety of 
their satellites? Additionally, what can we do to expand hosted payload 
opportunities?
    Dr. Tellis. As far as I can tell, most commercial satellite 
operators still operate on the presumption that space will continue to 
remain a protected sanctuary, at least as far as commercial systems are 
concerned. They are more concerned about congestion, debris, and 
peacetime management of space assets than military interference per se. 
Obviously, this will change over time, particularly if countries like 
China and Russia demonstrate a willingness to interfere with commercial 
systems. The dangers to commercial systems, however, pose new 
challenges to space deterrence. One approach to these dangers would be 
for the United States to adopt a clear declaratory policy that treats 
threats to space systems owned and operated by U.S. commercial entities 
similarly to those facing U.S. military systems. Another important 
complement will require expanding U.S. space situational awareness 
capabilities to encompass critical U.S.-owned and operated commercial 
satellites as well. Solutions of this sort will be essential as 
commercial space systems increasingly support U.S. defense operations.
    Mr. Carson. How quickly are we able to reconstitute capabilities 
like GPS or communications networks if one or more of our satellites 
was destroyed or otherwise taken offline? In your opinion, are 
additional investments necessary to increase this pace? If so, which 
investments?
    Dr. Butterworth. The GPS constellation includes some satellites 
that can be used as on-orbit spares, and so reconstitution can be quick 
if not too many satellites are taken offline. In my opinion, it would 
be prudent to invest in a backup terrestrial system (e-loran) to ensure 
continuity of the timing signal, vital to so many operations in our 
infrastructure.
    Communications networks can be reorganized fairly quickly in most 
cases of military need, but doing so would be done based on priority 
and the overall capacity of the network would be reduced if one of our 
satellites were destroyed or taken offline. The U.S. military has 
always needed more communications capacity for its operations. One idea 
to provide surge communications for regional military operations 
involves launching perhaps six small satellites with UHF payloads into 
an appropriately angled molniya orbits. Additional options will become 
available as the national security community moves further toward data-
centric approaches to communicating information.
    Mr. Carson. Can you describe how increased transparency into 
counterspace capabilities has impacted the perception of hosting 
military payloads among commercial satellite operators? What steps can 
we take to reassure concerned commercial operators of the safety of 
their satellites? Additionally, what can we do to expand hosted payload 
opportunities?
    Dr. Butterworth. While hosting military payloads might draw hostile 
attention to a commercial satellite, I have not seen serious concern by 
commercial operators about becoming a target for counterspace threats. 
For now, at least, the industry seems eager to offer hosting services 
for military communications systems that might be involved in 
``disaggregation.''
    The primary difficulty with attracting more hosts for military 
payloads is the incompatibility between the government's acquisition 
process and the commercial operator's business-driven schedule. The 
opportunities for hosted payloads will expand, I think, if the Defense 
Department can provide its payloads to the commercial operator with the 
agreed technical interfaces and within the commercial operators' 
production-to-launch schedule (say, 30 months).
    Mr. Carson. How quickly are we able to reconstitute capabilities 
like GPS or communications networks if one or more of our satellites 
was destroyed or otherwise taken offline? In your opinion, are 
additional investments necessary to increase this pace? If so, which 
investments?
    Mr. Krepon. U.S. launch capabilities are diversifying, which is a 
very positive development. However, certain satellites are harder to 
replace than others, and my sense is that the United States cannot 
depend on prompt reconstitution in some, if not most cases. I suspect 
these conditions also apply elsewhere. I think that everyone on our 
panel of witnesses has reached the conclusion that, because essential 
satellites are also vulnerable, resilient, disaggregated capabilities 
make more sense than relying on very few, highly capable satellites. If 
disaggregation results in some loss of high-end capability, I would 
still advocate disaggregation.
    Mr. Carson. Can you describe how increased transparency into 
counterspace capabilities has impacted the perception of hosting 
military payloads among commercial satellite operators? What steps can 
we take to reassure concerned commercial operators of the safety of 
their satellites? Additionally, what can we do to expand hosted payload 
opportunities?
    Mr. Krepon. I am inclined to support hosted payloads because they 
would result in disaggregation, thereby helping to offset counter-space 
capabilities. I view this as a cost-effective step that can complicate 
the plans of a potential attacker, thereby reinforcing deterrence. That 
said, hosted payloads could still be vulnerable payloads.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
